 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




REVITALIZING THE COMMUNllY HEALTH
     REPRESENTATIVE PROGRAM




                 APRIL 1993
                      OFFICE OF INSPE~OR                  GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECI’IONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared under the direction of William Moran, the Regional Inspector
General for the Office of Evaluation and Inspections, and Natalie Coen, Deputy Regional
Inspector General, Office of Evaluation and Inspections, Region V. Participating in this prject
were the following people:

Region V                                                                  Headquarters

Barbara Butz, Team Leader                                                 Alan Levine
Jennifer Antico, Lead Analyst
Jean Dufresne
Jo Lynn Antonik
 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




REVITALIZING THE COMMUNITY HEALTH
     REPRESENTATIVE PROGRAM




           APRIL 1993   OEI-O5-91-O1O7O
              EXECUTIVE                          SUMMARY
PURPOSE

This report describes factors which make Community Health Representative (CHR)
programs effective. The Public Health Service (PHS) could use these factors to
revitalize the program.

BACKGROUND

The CHR program is based on the concept that indigenous community members,
trained in the basic skills of health care provision, disease control, and prevention, can
successfully effect change in community acceptance and utilization of health care
resources. The CHR program is governed by the Indian Health Care Improvement
Act of 1988. In Fiscal Year (FY) 1992, the Indian Health Service (IHS), within PHS,
spent $39 million for 1,544 CHRS in 260 programs. The program is funded through
contracts, grants, or cooperative agreements based on the Indian Self-Determination
and Education Assistant Act (P.L. 93-638), hereafter referred to as 638.

In 1983, Congress mandated that IHS establish guidelines, goals, and clear evaluation
standards for the CHR program. The IHS produced guidelines and goals for the
program which are written in Chapter 16 of the Indian Health Manual. They also
developed two management tools: the Scope of Work (SOW), for planning purposes,
and the CHR Information System II (CHRIS II), for reporting.

Although Chapter 16 states that tribal CHR programs will be evaluated on a triennial
basis, IHS has neither developed evaluation criteria nor conducted a national
evaluation of the program.

SCOPE AND METHODOLOGY

This report should be read along with our companion report entitled “Management
Issues in the CHR Program.” In that report, we recommended that PHS, and tribes,
thoroughly re-examine the CHR program and decide whether to retain it in its current
form, revise it to become a transport program, or abolish it. Should they retain the
program, we recommended that they develop a national strategy to revitalize it.

This report presents information which could be useful to PHS in developing a
revitalization strategy. It describes what 403 respondents - from the national, area,
and local levels - said were the most important factors that make individual CHR
programs effective, and why they make programs effective. It also describes how the
factors can be used to judge the effectiveness of a CHR program.




                                             i
FINDINGS

According to respondents, four factors make CHR programs effective.

Factor 1: Agreement on the Role of the CHR

Area and local respondents ranked this factor number one. Their view is that the role
of the CHRS at a program must be well defined and understood by everyone involved
before any of the other factors can have any impact on the effectiveness of the
program.

Factor 2: Integration into the Health Care @stem

A majority of the CHRS ranked this as the factor with the greatest influence on the
effectiveness of their program. Other respondents all spoke of the need for CHRS to
work closely with health care professionals, especially if they provide medical care to
patients. They also said that this is important in the CHRS’ role as link to the
community.

Factor 3: lh3aI Suppo~ and Direction

Respondents say that a lack of tribal support and direction may cause a CHR program
to deteriorate. It may also lower the morale of the CHRS.

Factor 4: IHS Supp~   and Direction

Respondents believe IHS support has less impact on the effectiveness of CHR
programs than other factors. However, they also say that IHS support is needed to
make programs strong.

CONCLUSION

When we applied these factors at two CHR programs, using a case study approach,
we found that they were useful in judging the effectiveness of the programs. If PHS
decides to revitalize the CHR program, we encourage them to consider these factors
in developing a multi-faced national strategy for doing so.

COMMENTS
The Assistant Secretary for Planning and Evaluation (ASPE) and PHS commented on
the report. The ASPE agreed that more attention should be paid to the CHR
program. The PHS described steps that IHS has initiated to revitalize the CHR
program, noting that their revitalization strategy will take into account the factors
described in this report. The full text of the comments is in Appendix B.



                                           ii
                       TABLE                    OF CONTENTS

                                                                                                                    PAGE

EXECUTIVE         SUMMARY

INTRODUCTION .            ................ ................................ 1

FINDINGS        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5

Factor l: Agreement         on the Role ofthe CHR                  . . . . . . . . . . . . . . . . . . . . . . . . . . ..6

Factor 2: Integration inthe FIealth Care System . . . . . . . . . . . . . . . . . . . . . . . . ...9

Factor 3: Tribal Support and Direction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...11

Factor 4: IHSSupport          and Direction           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...14

CONCLUSION            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...17

APPENDICES          .....................................................

A    Endnotes     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l

B: Agency Comments              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-l
                           INTRODUCTION

PURPOSE

We conducted this study to identi~ and assess factors which make Community Health
Representative (CHR) programs effective. The Public Health Service (PHS) could use
these factors to revitalize the program.

BACKGROUND

Pkogram Hktoy

In 1968, under the 1921 Snyder Act (25 U.S.C. 13), Congress established the CHR
program within the Indian Health Service (IHS) in PHS. The program was intended to
provide outreach health care services for American Indian and Alaska Native tribal
governments and organizations. It is based on the concept that indigenous community
members, trained in the basic skills of health care provision, disease control, and
prevention, can successfully effect change in community acceptance and utilization of
health care resources. A CHR is “a tribal or Native community-based, well-trained,
medically-guided, health care provider, who may include traditional Native concepts in
his/her work.”1

The program is currently governed by the Indian Health Care Improvement Act
Amendments of 1988. In Fiscal Year (FY) 1992, IHS spent $39 million for 1,544 CHRS
in 260 programs throughout the continental United States and Alaska. Currently, IHS
spends about $1 million of this amount on training for CHRS, including funding a
national training officer and a number of training facilities.

The CHR program is funded through contracts, grants or cooperative agreement
arrangements with Native or tribal governments and organizations based on the Indian
Self-Determination and Education Assistance Act (P.L. 93-638), hereafter referred to as
638. The IHS is increasingly using 638 contracts as a mechanism to provide health
services to Indian people. Under them, tribes are delegated responsibility for
administering programs, and have great latitude in designing and operating them. The
IHS sets basic parameters and guidelines, and is responsible for management and
oversight of the national CHR program; however in terms of the day-to-day operation of
individual programs, IHS assumes more of a consultation and technical assistance role.

The program grew quickly from 1968 to 1980. At that time, however, Congress grew
concerned that the budget for the program could not be adequately justified. Program
activities had not been clearly documented and monitored by IHS, and programs varied
widely across tribes. Congress grew concerned about a lack of program goals and
objectives and an adequate reporting system, and reports that the CHR program was
little more than a “jobs” or employment program for reservations. In FY 1981 and 1982,
Congress began to reduce the number of CHR positions, and in FY 1983 the program



                                           1

came close to being eliminated. Although the program ultimately survived, Congress cut
513 slots from a peak of 2,293. This decline continued until FY 1990, when Congress
slowly began to increase slots to the 1,544 of today.

lYogram Administration

In 1983, Congress mandated that IHS establish guidelines, goals, and clear evaluation
standards for the CHR program. In response, IHS established the position of a national
CHR program director and developed program goals, objectives and guidelines which are
written in Chapter 16 of the Indian Health Manual.

Individual CHR contracts are administered by the 12 IHS area offices. The national
CHR program director, in the Office of Health Programs under the Special Initiatives
Branch, has no direct line authority over these area offices or staff. In more of a
consultation or technical assistance role, that office develops and implements
management standards and tools, plans training, and conducts program reviews.

In each area office, a CHR coordinator is the primary contact with the national program
director and the one area staff person with direct responsibility for CHR programs.
Project officers also have certain program and fiscal responsibilities in connection with
monitoring contracts, including CHR contracts, and facilitating the interaction between
tribal CHR programs and the service unit or area health care programs. Most CHR
coordinators and project officers juggle CHR duties with other responsibilities.

The IHS uses two important management tools in the CHR program. The Scope of
Work (SOW) is a form tribes may use to plan their CHR programs. The CHR
Information System II, or CHRIS II, is a reporting system based on the SOW. Although
not required to use either the SOW and CHRIS II, at present most of the tribes are
doing so.

Chapter 16 states, “Tribal programs will be evaluated on a triennial basis, through the use
of a nationally developed instrument, with tribal consultation and concurrence.”2 To
date, however, IHS has neither developed evaluation criteria or tools nor conducted a
national evaluation of the program.

SCOPE AND METHODOLOGY

The intent of this study was to identify and assess factors that make CHR programs
effective. This report describes those factors. A companion report entitled
“Management Issues in the CHR Program” (OEI-O5-91-O1O71) describes certain
management issues that arose in the course of the study.

As background for the study, we conducted a review of literature: legislation and
regulations on the CHR program, the Indian Self Determination Act, and the Indian
Health Care Improvement Act; Chapter 16 of the IHS manual; annual reports, CHRIS II
reports and other documents related to the CHR program; and reports on Indian health.


                                             2

We also spoke with persons in the Office of Management and Budget, and the Office of
the Assistant Secretary for Planning and Evaluation in the Department of Health and
Human Services.

Data collection took place in three phases. As this chart shows, we contacted over 400
respondents for the study.




               Piziicl ‘              Phase 1   Phase 2   Phase 3   Total

                   National           6          23                     29
                   Area               22         30       10            62
                                      16         58       25            99



               E                 .:             ::        :         :


Phase One: In November and December 1991, we visited 2 of the 12 IHS area offices
and 5 CHR programs, chosen in collaboration with IHS Area coordinators to represent a
variety of types of programs. We talked with over 75 respondents: people involved in
creating the program; IHS staff in area offices; and people in CHR programs and service
units. We also held focus groups with area CHR coordinators and CHRS and talked to
the national training officer and persons from the National Association of CHRS. We
asked them “What makes a CHR program strong (effective)?” They identified four
broad factors that make programs effective. In Phases Two and Three of the study, we
set out to learn more about the factors and assess their usefulness in judging program
effectiveness in a “real life” situation.

Phase Two: In February, March, and April 1992, we contacted an additional 272
respondents to learn their perceptions about the factors: how important are they, and
why?; if a factor is not present in a CHR program, is the program weakened?; and, what
can IHS do to strengthen or promote these factors?

  �	   At the national level, we talked to Congressional staff, people in the Office of the
       Assistant Secretary for Health in PHS, and IHS Headquarters staff.

  .	   At the area level, we chose five IHS area offices (Oklahoma City, Oklahoma;
       Aberdeen, South Dakota; Window Rock, Arizona, Navajo Nation; Portland,
       Oregon; and Nashville, Tennessee) which are diverse in terms of geography,
       program sizes and types, and together represent half of the 1,544 CHRS
       nationwide. We talked to area directors, CHR coordinators, and other health care
       professionals in these offices.



                                                3

  �   For respondents at the local, or program, level, we chose three CHR programs in
      each of these five areas (15 total). They were programs that had more than two
      CHRS, represented a geographic and programmatic mix, and agreed to participate
      in the study. We spoke by telephone with the tribal health directors, CHR
      supervisors, service unit directors, and health care professionals at these programs.
      We also contacted 161 CHRS. One of the 15 tribal officials we contacted
      responded to our inquiries.

  �   We visited a third IHS area office and three other CHR programs in connection
      with a review conducted by the national CHR program director. We also talked
      to tribal health directors at a conference.

Phase I’hree: In April 1992, using a case study approach, we visited two CHR programs
in two IHS areas, to apply these factors in a “real life” situation. We chose the programs
in collaboration with the national program director, the CHR coordinator in each area,
and the tribes themselves. Each program had 10 CHRS, most of them working as
generalists although some positions were dedicated to clerical or data entry work. The
sites were rural. Both had IHS semice units. We contacted 55 respondents in this phase.

This study was conducted in accordance with the Interim Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




                                             4
                                            FINDINGS


INTRODUCTION

In our report entitled “Management Issues in the CHR Program,” we recommended that
PHS, and tribes, undertake a thorough re-examination of the CHR program and decide
whether to retain the program in its current form, revise it to become a transport
program, or abolish it. Should they opt to retain the program, we recommended that
they develop a strategy to revitalize it.

This report describes what the 403 respondents in this study - from the national, area,
and local levels - said were the four most important factors that make individual CHR
programs effective. Should PHS decide to revitalize the CHR program, these four
factors should be considered in the development of a strategy to do so.

The factors are:

                                  .-

                        Factorsthat Influencethe Effectiveness
                                  of CHR Programs

                    Factor    1        Agreement on the role of the CHR

                    Factor    2        Integration into the health care system

                    Factor    3        Triial support and direction

                    Factor    4        IHS support and direction

                L


We describe why respondents think the factors make programs effective, and what
specific building blocks, or “elements,” comprise each one. We also explain how the
factors and elements can be used to judge the effectiveness of a CHR program. We
discuss each factor in the following format, and then present our conclusions.

Importance   of the Factor	   Why respondents think the factor makes CHR programs
                              strong, and what impact its presence or absence has on a
                              program’s effectiveness.

Elements for the Facto~       What respondents said comprises the factor.

Case Study Analysis:	         How we applied the factor and its elements in two CHR
                              programs, and what we learned about the programs using
                              them.




                                                     5

              FACI’OR 1: AGREEMENT            ON THE ROLE OF THE CHR

                                    Importance       of Factor

Local and area respondents think that there must be agreement on the role of the CHR at a
program before any of the other facton can z%zpactthe program

In terms of its influence on the effectiveness of CHR programs, local and area
respondents ranked “Agreement on the Role of the CHR” number one in importance
among the four factors. Their view is that the role of the CHRS at a program must be
well defined and understood by everyone involved before any of the other factors can
have any impact on the effectiveness of the program. They say that if tribal officials,
health directors, medical staff and CHRS do not have consensus about the CHR role,
services will become “fragmented and chaotic.” Also, CHRS would operate on an ad hoc
basis with each going their own way, like, as one respondent described, “a covey of
quails.”

The CHRS ranked this factor third in importance. Numerous CHRS commented on the
need for more focused direction ‘and supervision; some complained that they had “too
many bosses.”

The IHS headquarters respondents believe that once there is consensus on the role,
programs will have greater stability if the community, health care staff, and tribal officials
have the same expectations for the program. They were particularly concerned about
how a lack of agreement affects CHR morale. They are troubled that CHRS are
“perceived as the answer to everyone’s problems.” They said that CHRS are often pulled
in different directions between what they think they should do and tribal members who
might ask them to do inappropriate things: non-health-related things not in the SOW
such as delivering groceries or commodities, chopping wood, janitorial services or
transporting people to non-health-related functions.

                                          Elements

Respondents suggested the following elements to identify whether there is agreement on
the role of the CHR at a given program.

A.     Are there written goals, objectives, policies, procedures, job descriptions, a tribal
       health plan, and a written transportation policy? Have they been implemented?

B.     Do tribal leaders, community members, health program administrators and CHRS
       understand the CHR role? Do they all have the same understanding of the role?

c.     What kinds of requests for service do CHRS get from the community and medical
       staff? Are the requests within the range of semices agreed on for CHRS?




                                                 6
D.	    Are CHRIS II and SOW reports available?           Do they show that CHRS are
       providing intended sexvices?

E.	    Do CHRS work closely with the tribe’s health care system? Is there: continuity of
       care, coordinated effort, good communication, and teamwork?

F.	    Are there many consumer complaints?          Are consumers satisfied with the CHR
       program?

                                     Case Study Analysis

The elements told us that there k agreement on the role of the CHR b the two case study
programs. Z7iey ako toki us that this agreed-upon role k to provide transpatatkm  %
elements were easy to apply, but obsema~”onwas @ to accurately assessing the programs.

A.	    With the notable exception of a tribal health     plan, we had little difficulty obtaining
       written policies, procedures, goals, objectives   and reports at either site. Both sites
       were rich in such documentation. However,         we found that simply reviewing these
       documents was inadequate; only observation        enabled us to learn what was really
       happening in these programs.

       The CHR position descriptions we found at both programs provide one example
       of how written documents can be misleading. They were very broad and included
       services such as referral/liaison, direct health services, health education, and
       counseling. Transportation was included, but not emphasized. Yet in both
       programs, we observed that CHRS were heavily involved in transportation.
       Observation thus gave us a very different - a more “real” - picture of what CHRS
       were actually doing, as opposed to what the position descriptions said they were
       doing.

       Both programs had some kind of transportation policy that set limitations on CHR
       transportation sexvices. However, we could not tell how strictly the policies were
       enforced.

       At one site, the most revealing written documents were        the monthly and quarterly
       reports produced by the program manager summarizing            CHR activities for the
       time period. Transportation activities clearly dominate.       The reports also
       mentioned other activities such as delivering medication       and commodities, and
       assisting families at funerals.

B.	    At both sites we talked to people about their view of the CHR role. Most of
       them talked about transportation semices. Tribal officials, medical staff,
       community members, and the CHRS were very supportive of this function. Only a
       few people brought up the notion of CHRS doing other types of activities, like
       home care and personal care semices. At one sfie we talked to a tribal official
       who stressed the importance of transportation, but seemed open to an expanded


                                               7

      role for CHRS and was interested in hearing about what other tribes do with their
      CHR programs.

c.    Community members, medical staff, and tribal officials request services from the
      CHRS at these programs. The CHR supemisor schedules requests that are made
      in advance, but CHRS also spend time responding to immediate needs. At both
      sites, the primary requests were for transportation and delivery services. We
      learned about requests for service by observing CHRS in their daily activities, and
      by reviewing some of their daily activity logs.

D.    Both programs use the SOW and CHRIS II, and they provided us with their latest
      reports. We compared the CHRIS II reports to the SOW to see if CHRS were
      carrying out planned activities. We generally found the two documents to be
      comparable. However, at one program, we were troubled that the reports did not
      reflect our own observation of the services being provided. The SOW and CHRIS
      II showed transport services to be 15 percent and 22 percent of total CHR time
      respectively. Yet our impression was that transport is the primary if not the only
      activity of the CHRS in those programs. This example accentuates the point that
      written documents and reports should not be relied on exclusively to gauge
      program performance.

E.    We were able to assess the degree of interaction between the CHR program and
      the other health programs through interviews with CHRS and health care staff.
      We asked about the relationship between the programs. At both sites
      respondents told us that the primary purpose for interaction was for CHRS to
      provide transportation.  We discuss this further in the next section: “Integration
      with the Health Care System.”

F.    The element that we found most difficult to apply was “consumer satisfaction.” As
      people who spent only a few days with each program, we found it difficult to learn
      key community perspectives about the CHR program in any depth. A few times
      we heard complaints or hints of dissatisfaction. Generally, though, community
      members expressed satisfaction with programs and were grateful for the services
      they have received from CHRS.

In summary, these elements told us that there is strong agreement on the role of the
CHR in both programs. That agreed-upon role is primarily one of transporting patients
to and from medical appointments, and delivering medications.

We were able to apply all of the elements related to agreement on the role of the CHR,
although some were easier to apply than others. Furthermore, we found that some
elements could be misleading, and that obsemation is key to getting a full and accurate
picture of a program. For example, CHRIS II reports and CHR position descriptions
portrayed CHRS as involved in a wide variety of activities, yet we observed that these
programs were concentrated on providing transportation.     We learned also that the



                                            8
absence of documents (like a tribal health plan) can tell us about program priorities,
interests, and goals - or the lack thereof.

         FACI’OR 2: INTEGRATION           INTO THE HEALTH CARE SYSTEM

                                   Importance of Factor

A majority of the CHfi ranked Intqyation into the Health Care @stem as the factor w“~h
the greatest influence on the effectiiwmxs of their program

Fifty-eight percent of the CHRS ranked “Integration” the number one factor that
influences CHR program effectiveness. In addition, 71 percent of the area and local
respondents believe that a CHR program will be weakened “greatly” if integration does
not occur.

Respondents from the local, area, and national levels all spoke of the need for CHRS to
work closely with health care professionals, especially if CHRS provide medical care to
patients. They also said this is important in the CHRS’ role as the “link” to the
community.

A CHR program that lacks integration with the rest of the health care system could be
affected in a variety of ways. Some respondents said that duplication and gaps in
services would occur, and that health care professionals might lose their link to the
community. Other respondents were concerned that without interaction with a health
care professional, a CHR might make a mistake or provide misinformation in the course
of providing health semices. Still others voiced that CHRS might provide semices that
are not even related to health, such as janitorial or clerical.

                                         Elements

Respondents suggested the following types of elements to identi& whether a CHR
program is integrated with the tribe’s health care system.

A.	   Are there referrals between CHR programs and other health care programs?
      What are the types of referrals? What semices are provided as a result of
      referrals?

B.    Do health care professionals know, respect, and support CHR programs?

c.    Do CHRS participate in meetings and committees with health care professionals?

D.	   Are CHR activities closely related to defined community health needs?       Is there a
      tribal health plan?

E.    Is CHR training planned/coordinated    with training of health care professionals?



                                             9

F.     Do CHRS document their services for patients in patient medical records?3

G.     Does the CHR position description speci~ interaction with health care
       professionals?

H.     Does the CHR manager/supervisor      have a health care background?

I.     Is integration specified in the tribe’s contract with IHS?

                                    Case Study Analysis

l%e elementi for “Intqration” were easy to apply. l%ey provided vay strong evidknce that
neither program k well iktqyated with other health care programs, and that CH& are not
ikvolved in providing health care sem”ces.

A.     We asked about the referral system at both sites. At one site, referrals were
       numerous and most were for transportation.   Referrals in the other program could
       not be tracked, both in terms of the number of referrals or the kind of service
       provided as a result of referrals.

       We also looked at reports for evidence of referrals. At one program we found the
       reports unreliable. For example in 1991, the CHRIS II report counts 857
       referrals, but the tribe’s annual report claims a total of 151.

B.    Discussions with health care professionals revealed that they saw the CHRS solely
      as transporters. At one site the CHR program is co-located with another health
      program and supemised by the same person. There did appear to be some
      interaction and referral between the two programs, but it was ad hoc and
      primarily for transportation services. At the same time, a conflict between the
      CHR program manager and another department head stood in the way of those
      two programs working together.

      At the other site, although the CHRS transport many diabetic patients to and from
      the clinic, the diabetes counselor did not know that CHRS had any knowledge or
      training about diabetes, including nutrition and foot checks. If the CHRS have any
      valuable information about patients and their home life, we saw nothing to
      indicate that it is being utilized by health care professionals.

c.    The CHRS at both programs we visited did not meet at all with other health care
      professionals. We did hear that one of the CHR supewisors is invited to health
      promotion/disease prevention committee meetings but does not attend.

D.    We looked for a tribal health plan to determine whether CHRS are included in
      tribal plans to provide health-related sewices (as opposed to strictly transport).
      We found no such plan, nor in either setting did we see a any other plan
      specifically tying CHR activities in to defined community health needs.


                                             10
E.     Training of CHRs was not coordinated with health care professionals. The day we
       visited one site, many of the service unit health care professionals were attending
       an all-day seminar at the sexvice unit. The CHRS were not invited, nor, we
       learned, was it conceivable to the health care professionals that CHRS would ever
       be invited to such training.

F.     None of the other elements suggested by respondents was present at these two
       programs. CHR activities were not documented in patient medical records, we
       saw no instances where CHR position descriptions specified integration,
       managers/supervisors did not appear to have health care backgrounds, and
       integration was not specified in IHS contracts for these CHR programs.

Together these elements provided strong evidence that these CHR programs were not
well integrated with other health programs, particularly with those at the service unit.
Health care professionals and CHR program administrators saw “integration” solely in
terms of referrals to CHRS for transportation services or delivering medications.

We found the elements on health professionals’ opinions about the CHR program (B)
and referrals (A) particularly useful for assessing this factor. However, in terms of
referrals, we agreed with respondents who said that we should go beyond simply counting
the number of referrals between departments to get an accurate picture of the extent or
quality of integration. It is also important to know what types of referrals are being
made, and the outcome. For example, if referrals are solely for transportation, that tells
us that CHRS may not be working to provide health care semices alongside health care
professionals.

                  FACTOR 3: TRIBAL SUPPORT AND DIRECI’ION

                                   Importance     of Factor

Reqxxaden~ say that a lack of trr”balsupport and direction jeopardhx   the flectivenew   of a
CHR program and lowets CHR morale.

Respondents at IHS headquarters ranked “Tribal Support and Direction” as the number
one influence on program effectiveness. They think that tribal officials and community
members should understand and support the role of the CHR.

The CHRS ranked tribal support and direction second in importance. They had strong
opinions about some of the elements for this factor. For example, seventy-eight percent
feel that CHR employment decisions and CHR daily activities should not be influenced
by tribal politics.

The view of local and area respondents was that the CHR program would deteriorate
without support from the tribe. Like CHRS, these respondents were concerned that
CHR prog~ams are vulnerable to becoming “political Footballs.” They said that tribal
leadership can change frequently, often impacting hiring and firing decisions with each


                                             11
new administration. Also, they noted that both pressure on CHRS by tribal officials to
respond to inappropriate requests, and community complaints, may serve to lower CHR
morale.

                                          Elements

Respondents suggested the following types of elements to identify the degree of tribal
support and direction in a CHR program.

A.     Does the program have strong management        and supervision?

B.	    Is the CHR program insulated from tribal politics? Does the tribe support the
       program by providing: resolutions or letters of support, CHR access to tribal
       leadership, and/or a formal system for resolving co-mplaints from the community?

c.	    What is the level of satisfaction with the program on the part of tribal officials,
       community members, and CHRS themselves?

D.	    Do tribes make adequate equipment and materials available to the CHR program
       (e.g. office space/supplies, adequate travel reimbursement, training, and salaries)?

E.	    Does the tribe see the CHR program as part of the health care system? In an
       organizational chart, where is the CHR program located in relation to other
       health care programs? Is there a tribal health plan?

                                          Study Analysis

We found tribal support to be the most difficult factor to assess. Some elements include
sensitive or hard-to-obtain information.

A.	    To assess management and supemision, we asked to see managerial tools such as
       activity logs, reports, and schedules. Next, we talked to the CHR supervisors
       about their day-to-day operations and how the CHRS are monitored. We found
       that both programs had management systems in place and were reasonably well
       organized and supervised.

       In relation to strong management, respondents also noted the importance of
       having a strong CHR supemisor, who could compensate for a lack of involvement
       or support by the tribe. Based on our obsemations, we agree that this position
       could play an important role in focusing and improving these two programs. The
       supervisors at both appeared to have little health care background or training in
       managing a health care program. We believe that this may partially explain why
       the programs have not established a role in the health care system beyond
       transportation.




                                              12

B.   One of the more difficult elements for us to assess was the impact of tribal politics
     on these CHR programs. We found that the only way to learn about the political
     environment was from people in the program and the community. Therefore,
     much of our evidence about tribal politics is anecdotal.

     For example, a manager at one program complained that the tribal chief or the
     tribal health administrator could call at “the drop of a hat” for a CHR to pick
     someone up. Also, one tribal official told us that there were sometimes
     complaints that CHRS serve mainly their own relatives. However, we could not
     verifj these stories. As another illustration of how tribal politics can affect a
     program, at one site hiring decisions about CHRS are made by the tribal council
     rather than the program manager, who can only “suggest” possible candidates.

     We found no official recognition from the tribe in either program in the form of
     resolutions or letters of support, commendations, certificates or honors for the
     CHRS. While the IHS area office provides some of these things, we found no
     evidence that the tribes do.

co   As we have mentioned under Factor 1, it was difficult to gauge community opinion
     about the CHR program. When asked about the program, tribal officials and
     community members spoke quite favorably; they believe that the services provided
     by the CHRS are very important. Our conclusion, however, is that their support is
     very much based on the programs’ status quo, i.e. transportation.   Beyond verbally
     supporting the programs, these tribes appeared to be minimally involved with
     them. In fact we were struck by the lack of knowledge, beyond transportation,
     about the program on the part of most tribal officials we talked to.

     On the surface, CHRS appeared to be satisfied with their programs and
     leadership, though it is difficult for us to say after only a few days. At one site, a
     few CHRS spoke of some dissatisfaction with tribal administration.

D.   Respondents, particularly CHRS, suggested we look at the types of resources that
     tribes provide for the CHR program to gauge the level of tribal support. In terms
     of transportation, one program provides cars for their CHRS, and at the other site,
     CHRS use their personal vehicles. At these two sites (as well as the eight others
     we visited for this study), CHRS complained about the low level of reimbursement
     for travel, and low salaries. At one program, CHRS said they had not received
     any pay increases in the past 10 years, while they watched staff in other tribal
     health programs receive various raises and bonuses.

E.   As for Factors 1 and 2, respondents suggested we look for evidence that health is
     a priority for the tribe (i.e. studies, health plans, needs assessments, etc.) as an
     element of tribal support and direction. As stated earlier, these two programs
     lacked this element. The fact that this element appears for Factors 1, 2, and 3
     points both to its importance and to the interrelatedness of the factors and
     elements.


                                            13
Based on these elements, our conclusion is that there is tribal support for these two
programs, but that it is based on their being transportation programs. Beyond supporting
a transportation role for their CHRS, the tribes showed little interest or active
involvement in the programs. There were no written documents voicing support, no
health plans, and little discernible interest in expanding the CHR role to encompass
health care services.

We had some difficulty assessing this factor. Although we heard that tribes supported
the CHR programs, we found no written forms of support or evidence of it, including
evidence that health is even a priority for these tribes. Also, while CHRS as a group
seemed satisfied, some of them individually expressed concerns about political influence
on their program.

We did not have enough time to delve sufficiently into this conflicting information.
Furthermore, lacking a historical perspective, it was difficult for us to gauge what impact
tribal politics might have on these programs. We believe that someone in closer contact
with a tribe, such as the area CHR coordinator, might find it easier to apply these
particular elements.

                    FA~OR       4: IHS SUPPORT AND DIRECTION

                                   Importance     of Factor

Reqxmden& believe that while IHS supprt has less impact on the effectiveness of CHR
programs than other factors, it k important to make programs strong.

The CHRS ranked this element third in importance of the four factors. Area and local
respondents ranked it fourth. Even so, they still believe that IHS can strengthen
programs. For example, one said that, without IHS support, a CHR program “would be
a rudderless ship . . . (CHRS) might be busy, but they won’t be effective.”

                                         Elements

Respondents identified the following elements as ways to gauge IHS support and
direction for a CHR program,

A.     Is there a positive relationship between IHS and the tribe? Is IHS responsive to
       requests? Is there on-going communication between the CHR program and IHS
       area and local staff?

B.     Does the IHS area office have a full-time CHR coordinator, with an
       appropriate background and support?

co     Does IHS provide adequate funding, equipment, materials, and training to the
       program?



                                             14
D.    Does IHS provide technical assistance to tribes on how to use the various
      management tools - especially the SOW and CHRIS II?

E.    Is the IHS service unit at the program providing regular and useful technical
      assistance, management, and professional assistance?

F.    Does IHS monitor and review the program, i.e. conduct audits, evaluations, and
      site visits?

                                  Case Study Analysis

The elements told us that IHS provides administrative and financial support for these
CHR programs but does not actively promote or encourage tribes to involve their CHRS
in the health care system beyond a transport role.

A.    To learn about the relationship between IHS and the two tribes, we talked to both
      tribal and IHS staff. At one program, the IHS area office clearly had a close
      relationship with the CHR program. Staff there were verbally supportive of the
      program and felt it was one of the best in the area. This area office has provided
      significant extra funding for this program, including funds for cash bonuses for the
      CHRS. The CHR coordinator makes periodic visits and makes training available
      to the program.
      The relationship was more difficult to assess at the other site. The IHS project
      officer and sewice unit director told us that they work very closely with the tribe.
      However, the CHR coordinator was new and not yet familiar with the program.
      We got a different perception about the degree of IHS support from some people
      at the tribal level.

B.    One of the CHR coordinators is full-time, the other has multiple responsibilities in
      addition to the CHR program. This is common in the CHR program as a whole;
      only 2 of the 12 area CHR coordinators are full-time.

c.    Funding and resources appear to be adequate for the programs we visited.
      However, we frequently heard complaints from CHRS about low salaries. (Even
      though salaries are set by the tribes, many people seem to expect IHS to be
      responsible for salary increases.) People also talked of a need for better travel
      reimbursement or more government cars.

      In terms of training, IHS provides the basic training course to all CHRS but
      availability of other training varies from program to program. At one program,
      IHS rather than the tribe makes training available; CHRS are encouraged to
      attend training and other regional conferences. At the other site, we saw that
      until recently, CHRS had not received any training from IHS, nationally or at the
      service unit level.




                                            15
D.    The area CHR coordinators do provide technical assistance to tribes on how to fill
      out the SOW and the CHRIS II reports, and stress the importance of reporting
      CHR activities. However we do not know how much they focus on their use as
      management tools. For example, while the CHR coordinator for one program
      expressed concern about the incongruence of transportation services listed on the
      SOW and CHRIS II reports, the thought was more that the SOW needed to be
      updated to match the latest CHRIS II report rather than reorienting CHR
      activities to conform to the SOW.

      We did not get the impression that programs use the SOW and CHRIS II for
      management purposes. Rather, administrators largely viewed CHRIS II reports as
      necessary ways to get funding for their programs. The supervisor at one program
      said she planned to use the SOW and CHRIS II for management purposes,
      however this program, like the other, still remained focused primarily on
      transportation.

E.    We saw little effort on the part of IHS service unit staff to offer these programs
      the guidance needed to change or expand them into health service areas beyond
      than transportation.   To the contrary, service unit medical staff relied on CHRS
      for transportation.  In addition, neither service unit provided any training to the
      CHRS.

F.    The two CHR coordinators monitor their programs primarily by phone, with
      occasional site visits. The project officers also monitor the programs in terms of
      contractual issues and problems. However, IHS staff did not appear to formally
      audit or evaluate these programs on a regular basis. We did not hear of any fiscal
      review of these programs by the program officers. And we learned that required
      audits cover a tribe’s entire contract rather than one program alone.

      At one program, we learned that, a few years ago, an internal control review by
      the area office had recommended that a formal link be established between the
      CHR and public health nursing programs. However the recommendation was
      never acted upon, and was eventually quietly dropped.

Although we found that we could apply these elements in a program, in our view their
usefulness is somewhat limited. We found that they can be present in a program, yet not
have a significant impact on making the program effective in meeting health care needs.
For example, neither the nature of the relationship between the tribe and the CHR
coordinator, nor whether the coordinator was full- or part-time, seemed to affect the
outcome of the programs; they both remained heavily focused on transportation.

The more important issue seems to be the focus of support that IHS gives these
programs. That is, we noticed that IHS emphasis seems to be on administrative issues
(like reporting and budget), and perpetuates the status quo of transport rather than help
the programs expand beyond it.



                                            16
For this reason, we suggest that another element be added for this factor:

G.     IHS area and service unit staff actively encourage and assist tribes to incorporate
       in their CHR programs: (1) agreement on the role of the CHR, (2) integration
       into the health care system, and (3) strong tribal support and direction.

CONCLUSION

As an increasing number of tribes take over their own health care programs under P.L.
638, it is critical that IHS develop management and evaluation tools to ensure
accountability in these programs. In this report we have presented an example of how
IHS could develop such tools. We found these factors and elements useful for assessing
two CHR programs. However we recognize that IHS might develop others as well, and
we encourage them to develop their own system to monitor and measure the CHR
program.

This study shows that these factors and elements are indeed useful as a basis for gauging
CHR program effectiveness. They are, in effect, common denominators for all 260 CHR
programs. If used flexibly and with common sense, they will demonstrate many things
about how, and how well, a program is functioning. We think they are particularly valid
because they came from a wide variety of people who know about, and are involved in,
the CHR program.

We learned a number of valuable lessons about the factors and elements:

The factors and elements are interrelated. Respondents named some elements in
connection with more than one factor. For example, they named “the existence of a
tribal health care plan” as an element for Factors 1, 2, and 3. They named “consumer
support/satisfaction” for Factors 1 and 2. Or, sometimes one of the factors is also an
element for another factor. For example, “do CHRS work closely with the tribe’s health
care system,” which is Factor 2 (Integration), is one of the elements for Factor 1
(Agreement on the Role). Thus one element may shed light on a number of factors.
Also, no. single factor or element can tell the whole story of how a program functions.

The elements must be applied flexiily. Elements should not be viewed rigidly or used in
a “cookbook” manner. Depending on the program, some elements may be more useful
than others and some may not make sense at all. Interpreting information must also be
done flexibly. For example, the fact that a tribe uses a variety of management tools does
not necessarily mean, in and of itself, that the program is well managed. Or, the fact that
a CHR coordinator is “part-time” does not necessarily mean that a program gets less
support from IHS than from a full-time coordinator.

Obsemation is a critical part of applying the elements. We found that observation
helped us to identi~ issues that we could not find directly when looking for the elements.
For example, one of the most substantial conclusions we made about these two programs
was that they are primarily transportation programs. Yet none of the elements
specifically focuses on the issue of transportation. We only learned that these were
transportation programs through observing, spending time with CHRS, and holding
numerous conversations with people at both the local and area levels.

COMMENTS

The Assistant Secretary for Planning and Evaluation (ASPE) and PHS commented           on
the report. The full text of their comments is in Appendix B.

The ASPE agreed with us that that more attention should be paid to the CHR program
and that our report provides IHS with an approach to move in this direction.

The PHS concurred with the findings and recommendation in our companion report
entitled “Management Issues in the Community Health Representative Program.” They
described steps that IHS has initiated to revitalize the program and noted that their
revitalization strategy will take into account the factors described in this report.

We thank ASPE and PHS for their comments.




                                            18

                              APPENDIX                   A


                                       ENDNOTES



1. Indian Health Manual,   3-16.2B

2. Indian Health Manual, 3-16.13C

3.
 This is a potentially controversial issue. Some respondents expressed concern about CHR
access to medical records and patient confidentiality. One suggested allowing limited access.




                                            A -1
APPENDIX       B


 AGENCY COMMENTS




       B-1
  C*F
    -
     ,‘-q

  +,



    -q!!
*“

.
: *                DEPARTMENT OF HEALTH & HUMAN SERVICES                                  l%bliiHeam’1
                                                                                                     M
:
 3
  %
   %wd
    > #~
                                                                                          Memorandum
         Date

     From Acting           Assistant     Secretary      fo~     Health


     Subject	   Office  of Inspector    General     (OIG) Draft       Reports   “Management
                Issues  in the Community     Health    Representative         (CHR) Programf”
                and “Revitalizing    the CHR Program’”
     To
                Acting    inspector      General,     OS


                Attached    are the Public Health service comments onzthe subject
                draft    reports. We concur with the xecommendationto thoroughly
                re-examine the CHR program and determine its future direction.
                The lndian    Health  Service     has begun      activities         to revitalize
                the program.      The attached       comments    ciiscuss     the actions         planned
                or taken   to develop     a national     strate~         to revitalize        the CHR
                program.


                                             UkL-# A@’+­
                                             Audrey F         Manley,    M.D., M.P.H.
                Attachment





                                                                                                     —
                                                                                                     .0




                                                               B-2
,
        ,’
    .




              General Comments
              The OIG reports on the Community Health Representative (CHR )
              program provide valuable information. They highlight problems
              that the Indian Health Se-ice (IHS) is aware of and is working
              actively to re801ve. The reports also supported PHS efforts to
              implement long-range initiatives in collaboration with the IHS
              Headquarters East and the Tucson-based Office of Health
              Programs Research and Development.

             The IHS, in order to determine if Area Office CHR programs are
             meeting the intent of Congress and program objectives, will
             utilize an evaluation methodology developed by the Oklahoma
             City Area Office. The Oklahoma Area Office’s CHR annual
             program assessment is comprised of a standardized table of
             scores that are derived from a comparison of the scope of work
             and data in the CHR Information System II (CHRIS II) records.
             Using this methodology, the Oklahoma Area Office has performed
             annual evaluations to compare the progress of individual CHR
             programs  between Fiscal Yea=s (FY) 1990 and 1991. Because of
             the satisfactory       results    obtained        in the Oklahoma       Area     Office,
             a version      of this   management     tool      will  be tistr~uted          to the
             other   Area Offices.

             In acidition,     lIIS   is   cieveloping   outcome     and   quality    oriented
             evaluati0n8 for the C!HRprogram. The evaluations will be based
             on “Healthy People 2000””objectives, the pati~t  Care component
             of the Resource and patient Management System, and data
             contained in CHRIS II.

             OIG Recommendation

             The PHS, together with Tribes, should thoroughly re-examine the
             CHR program to determine its future direction. If a consensus
             is reached to revise the program, PHS should develop the
             appropriate legislative proposals to do so. If it remains as a
             broad-based health care program, PHSshould develop a
             multifaceted national strategy to revitalize the m   program.

             PHSComments
             We concur and will initiate   actions to revitalize the program.
             IHS has be-    activities in this regard. The Area Office CHR
             Coordinators met with IHS Headquarters staff the week of
             October 26, 1992, and drafted   an action plan to revitalize the


                                                         B-3
4
            .

    .
        .
.



                                                                                              2


                 CHR program. This draft action plan was presented to the Board
                 of Directors of the National Association Of ~.     The purposes
                 of this presentation were to (1) brief Board mtiers on-the
                 goals and objectives of the draft action plan, and (2) seek
                 Board member comments on, criticisms of, and suggested
                 improvements to the draft action plan.

                The IHs’ FY 1993 activities to revitalize the CHR program will
                culminate in a national IHS/~   Tribal p~ership     Conference
                which is tentatively scheduled for late September 1993. It is
                expected that this conference will be attended by IHS
                executives and managers, tribal leade~s, ~,     -d. consumers.
                At this conference, IHS intends to summarize the findings and
                recommendations contained in the OIG reports. Position papers
                on the ‘national goal and objectives of tie ~    program” and
                ‘role of the CHRW will be presented also.

                In developing a national strategy for revitalizing the CHR
                program, IHS will carefully consider the factors, identified in
                the OIG reports, that influence the effectiveness of CHR
                programs. IHS acknowledges that:

                        o    The role of the CHR must be well-defti~ and understood
                             by tribal governments, community members, and the IHS
                             health care team.

                        0    A community-based health care outreach program should
                             work closely with the health care professionals serving
                             the respective communities. Therefore, CHRS must be
                             integrated into the health care system.
                       0    The CHR program is a community-based, ~ibally-operated
                            program that can only be effective with full tribal
                            support and direction.
                       o    IHS support and direction is important to make a strong
                            CHR program.
                The   national   strategy   will   address     the   factors   mentioned above.




                                                         B-4
          $-r   O,


�
     ,?
                     �
4+        *


4$1
*
:.
s
8“%,>
                                DEPARTMENT OF HEAL~ & HUMAN SERVICES                                               ofTlcoofthosea@=Y


                                                                                                                   Wuhhgtlm,
                                                                                                                          m. 2020’


                                                             DECIW2

                         TO:	              Bryan     B. Mitchell
                                           Principal     Deputy Inspector General
                         FROM :	           Assistant Secretary for
                                           Planning and Evaluation
                         SUBJECT     :     OIG Draft Reports: Management Issues in the Community
                                                                                               —
                                           Health Representative Program,” OEI-OS-01071 and
                                           “Revitalizing the C ommunity Health Representative

                                           Program,” OEI-O5-91-O1O7O

                     The draft  reports on the IHS Communitv Health Representative
                                                                             ———

                     Program present compelling evidence that more at;e~tion should

                     be p~i~ LU dhis program. Your findings are dramat$c and-the
                     proposed elements of a revitalization strategy psovide a
                     thoughtful framework for further action. The clearest      indication
                     that the program could be strengthened is the finding that the
                     majority of local respondents are not familiar with its goals and
                     objectives.   Your examination of the SOW ud CnlS II reports
                     calls into question the usefulness of these instruments as
                     management tools.   In addition, the lack of htegration     of CHRS
                     into Native American primary care systems is particularly
                     problematic.   This report provides IIIS with m approach    to begin
                     exaxnination           of   the    program.

                     We have         the    following       specific   comments.

                     o	          The reports      document       that  transpofiation        is an tiportant
                                 component     of CHR responsibilities.               The%e exist      large,
                                 unexplained      discrepancies,         however,     between   diffezent
                                 sources     of information         on the proportiontime    of the c~’s
                                which is devoted to transportation services. It is not
                                clear that revision of the progrm to beco~ pr~ily      a
                                transport program is actually a reason~le option to be
                                considered by IHS, based on these preltinaq  findings.
                     o
          “Tribal support and direction” is listed as one of the four

                                key factors influencing CHR program effectiveness. However,

                                as noted on page 4 of the “Management Issues” report,

                                only one of 15 surveyed      tribal     members responded to IHS
                                inquiries.    This report   would      be stren@ened   by an
                                increased  effort  to include       tribal input as an integral
                                component of your evaluative         process.

                                                                                  e:       . ,s. P-.-l “1
                                                                                  J        “/ ),- & u-”   ----

                                                                                                    --- . - +
                                                                            B-5        -   1-- -;:!    =02:;4:”:
                                                                                             --   *t-*%m*a
            8*       *
.   .
                              ��
                 �

                 �
        I




                         Page      2 -   Bryan      B.   titchell

                         o         It would be helpful to clarify how information was gathered
                                   from the 403 respondents. When you “tallcai to” respondents,
                                   was a questiomaire used,    oz we=e these  fsee   flowing
                                   conversations?  Was a standard   set of questions     used to
                                   base the contacts?
                         o         How were the four factors that most influence the
                                   effectiveness of CHR programs developed? Were respondents

                                   presented with a list of factors cxeated by your staff?

                                   Were they elicited through focus groups? llanyperspectives

                                   were represented in the comments: a statistical breakdown
                                   of the commentary would clarify the agreement on various
                                   elements and assertions.
                         o         The organization of the papers is somewhat confusing. It is
                                   not clear which report should be read first, and the reader

                                   often finds it necessary to consult one document in order to

                                   fuily understand same ef the points made h the @hero     It

                                   might be preferable to consolidate the reports into a single

                                   document, with the methods, findings and recommendations
                                   clearly organized.
                         o         Your case studies indicate that the information presented in
                                   written documents was sometimes contradicted by yOUX
                                   observations. Did              you   ask any of the respondents  to address
                                   the   apparent        discrepancy       between the written materials and
                                   your obsemations on elements A and D of Factor 1?
                         o	        References to the presence or absence of tribal health plans
                                   in the “Revitalizing” report are confusing and should be
                                   clarified. The discussion of Factor 2, Element D, on page

                                   10 states that “as mentioned under Factor 1, Element A, we

                                   found no plan.”   The referenced section on Factor 1,

                                   Element A does not mention this finding, however, and even

                                   states on page 7 that “Both sites were rich in documenta­

                                   tion.”
 In the summary section following the individual
                                   discussions of the elements, at the bottom of page 8, there
                                   is also an indirect reference to “the absence of documents
                                   (like a tribal health plan) .“



                                                         /




                                                                           B-6
